electronic mail message written by Mr.
m      ~

with Dr.
-       f
              i


                m
                   v


                      m
                         i     s     i
                                         -
                            CLOSEOUT FOR M96090031

        This case came to OIG on September 20, 1996, when we received a copy of an

                                           o of
                                           ..
                            (the NSF admrnrstrator). He reported on a conversation
                       (the complainant), an NSF supported scientist with a Ph.D. in
                               -     He informed OIG that she told him that there was
a hostile-environment for female and minority scientists in the-~epartment
the university. He also indicated that she believed that her dissertation advisor, Dr.
                                                                                       at

0(the subject), had made inappropriate sexual advances to her.
      OIG called the complainant. Her allegations against the subject concern
nuances of intenctions that occurred over six years ago. OIG concluded that memories
of these distant events could not be sufficiently reliable as to context and detail to form
the basis for NSF action concerning the complainant's allegations.

        This inquiry is closed and no further action will be taken on this case.

cc: Deputy Assistant Inspector General, Oversight; Assistant Inspector General,
 Oversight; IG




                                    page 1 of 1
